HHS/OIG, Audit -"Review of Alaskas Claim for Federal Matching Funds for Reimbursable Service Expenditures Claimed
As Other Financial Participation for The Quarter Ended June 30, 2003,"(A-09-04-00058)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Alaskas Claim for Federal
Matching Funds for Reimbursable Service Expenditures Claimed As Other Financial Participation for The Quarter Ended June
30, 2003," (A-09-04-00058)
October 22, 2004
Complete
Text of Report is available in PDF format (390 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Alaska properly
calculated its reimbursable service expenditures that were claimed as other financial participation on Form CMS-64 for
the quarter ended June 30, 2003.  Contrary to Federal cost principles, Alaska improperly calculated its reimbursable
service expenditures that were claimed as other financial participation on Form CMS-64.  As a result, Alaska improperly
claimed Federal matching funds of $346,217.  Alaska did not discover the calculation error because it did not have
adequate internal controls to ensure that the claim for Federal matching funds was accurate.  We recommended that
Alaska refund to the Federal Government the Federal matching funds of $346,217 that were improperly claimed as a result
of the calculation error and develop and implement adequate internal controls to ensure that claims for Federal matching
funds are properly calculated.  Alaska stated that it has already taken corrective action by reporting an adjustment
on Form CMS-64.  Alaska did not address the recommendation that it develop and implement internal controls to ensure
that claims for Federal matching funds are properly calculated.